OFFICE OF THE
CITY ATTORNEY

January 7, 2020
VIAE-FILING AND FIRST CLASS MAIL
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:Louis Taylorv. Pima County, Arizona, eta!., No. 19-756
Letter Motion for Extension of Time to file Brief in Opposition to Petition for
Writ of Certiorari (first 30-day request)

Dear Mr. Harris:
I represent Respondent City of Tucson ("City") in the above-captioned case. Pursuant to Rules 15.3 and 30.4 of the Supreme Court Rules, the City respectfully requests
a 30-day extension, to and including February 12, 2020, to file a response to the Petition for Writ of Certiorari filed by Petitioner Louis Taylor on December 12, 2019.
The City's Brief in Opposition is currently due January 13, 2020.
Pima County, another Respondent in this case, filed a similar letter motion for extension oftime to file brief in opposition on December 31,2019, likewise seeking a 30-day extension from January 13, 2020 to February 12, 2020. Pima County's requested
extension was granted on January 3, 2020.
The City's requested extension will allow undersigned counsel to either:
(1) fully respond to the complex and factual and legal issues raised in the Petition; or
(2) coordinate with Pima County and this Court so that the City can join in any Brief
in Opposition filed by Pima County, thereby avoiding duplicative briefing.

{A0278708.DOC/}CITY HALL • 255 W. ALAMEDA • P.O. Box 27210 • Tucson, AZ 85726-7210
(520) 791-4221 • FAX (520) 623-9803 • TTY(520) 791-2639
www.tucsonaz.gov

Letter Motion for Extension of Time to File Brief in Opposition to Petition for Writ of Certiorari
January 7, 2020
Page2
As required by Supreme Court Rules 29 and 30.4, a Certificate of Service is being
filed with this Letter Motion, showing service on all other parties.
Thank you for your kind assistance.
Sincerely,

~

~-~L~!!+{i
Principal Assistant City Attorney
DPM/ea

